No. ________

IN THE

Supreme Court of the United States

d
LOUIS RODERICK OGDEN ,
—v.—

Petitioner,

SUPERINTENDENT ERIC TICE , et al.,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE THIRD CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

ANDREW J. KATSOCK , III
Counsel of Record
15 Sunrise Drive
Wilkes-Barre, Pennsylvania 18705
(570) 829-5884
ajkesq@comcast.net
Attorney for Petitioner
Louis Roderick Ogden

April 27, 2020

i
QUESTIONS PRESENTED FOR REVIEW
1.

Whether the Third Circuit Court of Appeals
erred in denying the Petitioner’s Certificate of
Appealability?

2.

Whether the District Court should have granted
the Petitioner’s Petition for Writ of Habeas
Corpus?
PARTIES TO THE PROCEEDINGS
Louis Roderick Ogden, Petitioner
Superintendent Eric Tice, Pennsylvania State
Correctional Institution at Somerset

ii
TABLE OF CONTENTS
PAGE

QUESTIONS PRESENTED FOR
REVIEW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

i

PARTIES TO THE PROCEEDINGS . . . . . . .

i

TABLE OF AUTHORITIES . . . . . . . . . . . . . . . .

iv

OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . .

1

JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . .

1

CONSTITUTIONAL PROVISIONS
AND STATUTES AT ISSUE . . . . . . . . . . . .

2

STATEMENT OF THE CASE . . . . . . . . . . . . . .

5

REASONS FOR GRANTING THE
PETITION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

13

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . .

22

APPENDICES
APPENDIX 1—Third Circuit Court of
Appeals Notice of Judgment and Order
denying the Petitioner’s request for
a Certificate of Appealability . . . . . . . . . . .

1a

APPENDIX 2—Order of the United
States District Court for the Middle
District of Pennsylvania denying the
Petitioner’s request for a Certificate
of Appealability . . . . . . . . . . . . . . . . . . . . . . . . .

7a

iii
PAGE

APPENDIX 3—Order and Memorandum of
the United States District Court for the
Middle District of Pennsylvania denying
the Petitioner’s Petition for a Writ of
Habeas Corpus . . . . . . . . . . . . . . . . . . . . . . . . .

11a

iv
TABLE OF AUTHORITIES
PAGE(S)

Cases
Branch v. Sweeney,
758 F.3d 226 (3d Cir. 2014) . . . . . . . . . . . . . . . . . 16
Everett v. Beard,
290 F.3d 500 (3d Cir. 2002) . . . . . . . . . . . . . . . . . 15
Francis S. v. Stone,
221 F.3d 100 (2d Cir. 2000) . . . . . . . . . . . . . . . . . 15
Harrington v. Richter,
562 U.S. 86, 131 S.Ct. 770,
178 L.Ed.2d 624 (2011) . . . . . . . . . . . . . . . . . . . . . 16
Jennings v. Woodford,
290 F.3d 1006 (9th Cir. 2002) . . . . . . . . . . . . . . . 20
Kimmehnan v. Morrison,
477 U.S. 365, 106 S.Ct. 2574,
91 L.Ed.2d 305 (1986) . . . . . . . . . . . . . . . . . . 15, 16
Lambert v. Blackwell,
387 F.3d 210 (3d Cir. 2004) . . . . . . . . . . . . . . . . . . 1
Lambright v. Stewart,
220 F.3d 1022 (9th Cir. 2000) . . . . . . . . . . . . . . . 20
Miller-El v. Cockrell,
537 U.S. 322 (2003) . . . . . . . . . . . . . . . . . . . . . 20, 22
Murray v. Carrier,
477 U.S. 478, 106 S.Ct. 2639,
91 L.Ed.2d 397 (1986) . . . . . . . . . . . . . . . . . . . . . . 16

v
PAGE(S)

Rompilla v. Beard,
545 U.S. 374, 125 S.Ct. 2456,
162 L.Ed.2d 360 (2005) . . . . . . . . . . . . . . . . . 15, 17
Slack v. McDaniel,
529 U.S. 473 (2000) . . . . . . . . . . . . . . . . . . . . . 13, 20
Strickland v. Washington,
466 U.S. 668 (1984) . . . . . . . . . . . . . . . 1, 15, 16, 17
Termyn v. Horn,
266 F.3d 257 (3d Cir. 2001) . . . . . . . . . . . . . . . . . 16
Thomas v. Varner,
428 F.3d 491 (3d Cir. 2005) . . . . . . . . . . . . . . . . . 16
United States v. Santarelli,
929 F.3d 95 (3d Cir. 2019) . . . . . . . . . . . . . . . . . . . 1
Wiggins v. Smith,
539 U.S. 510, 123 S.Ct. 2527,
156 L.Ed.2d 471 (2003) . . . . . . . . . . . . . . . . . 16, 17
Williams vs. Taylor,
529 U.S. 362, 120 S.Ct. 1495,
146 L.Ed.2d 389 (2000) . . . . . . . . . . . . . . . . . . . . . 15
Woodford v. Viscotti,
537 U.S. 19, 123 S.Ct. 357,
154 L.Ed.2d 279 (2002) . . . . . . . . . . . . . . . . . . . . . 16
Wright v. West,
505 U.S. 277, 305, 112 S.Ct. 2482,
120 L.Ed.2d 225 (1992) . . . . . . . . . . . . . . . . . . . . . 15
Statutes
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 2244 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

vi
PAGE(S)

28 U.S.C. § 2244(b)(2) . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 2253(c) . . . . . . . . . . . . . . . . . . . . . 1, 13, 20
28 U.S.C. § 2253(c)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . 13
28 U.S.C. § 2253(c)(2) . . . . . . . . . . . . . . . . . . . . . . . . . . 19
28 U.S.C. § 2254 . . . . . . . . . . . . . . . . . . . . . . . 1, 3, 5, 17
28 U.S.C. § 2254(d)(1) . . . . . . . . . . . . . . . . . . . . . 14, 22
Pennsylvania’s Post-Conviction Relief Act
(“PCRA”) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Pennsylvania Rule of Criminal Procedure
§ 606 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Constitutional Provisions
Pennsylvania Constitution Art. I, § 9 . . . . . . . 5, 17
US Constitution, Amend. VI . . . . . . . . . . . 2, 3, 5, 17
US Constitution, Amend. VIII . . . . . . . . . . . . 3, 5, 17
US Constitution, Amend. XIV . . . . . . . . . . . . . 3 , 5, 17
Treatises
ABA Standards for Criminal Justice:
Prosecution Function and the Defense
Function 4-4.1(a) (3d Edition 1993) . . . . . . . . . 17

1
OPINIONS BELOW
On January 28, 2020, the Third Circuit Court
of Appeals entered its Notice of Judgment and
Order in this matter denying the Petitioner’s
request for a Certificate of Appealability stating:
“Petitioner’s request for a certificate of
appealability is denied because he has
not made a ‘substantial showing of the
denial of a constitutional right.’ 28
U.S.C. § 2253 (c). Petitioner’s claim that
he was denied ineffective assistance of
counsel lacks merit. See Strickland v.
Washington, 466 U.S. 668, 687, 694
(1984). To the extent Petitioner raised
independent claims of error in the state
court PCRA proceedings, those claims
are not cognizable.
See Lambert v.
Blackwell, 387 F.3d 210, 247 (3 rd Cir.
2004). To the extent Petitioner raised
other
cognizable
claims
that
are
predicted on the ineffective assistance of
counsel, those claims lack merit, as the
District Court concluded.
Finally, we
note that Petitioner has presented new
claims in his application for a certificate
of appealability. To the extent that he
thus requests permission to file a second
or successive § 2254 petition pursuant to
28 U.S.C. § 2244, see generally United
States v. Santarelli, 929 F.3d 95, 105-06
(3d Cir. 2019), we decline to grant
permission because he does not meet the
requirements of 28 U.S.C. § 2244 (b)(2).”
See Appendix 1.

2
The September 24, 2019 Order of Chief United
States Magistrate Judge Susan E. Schwab of the
United States District Court for the Middle
District of Pennsylvania denying the Petitioner’s
request for a Certificate of Appealability is
attached hereto as Appendix 2.
The August 20, 2019 Order and Memorandum
April 11, 2017 Report and Recommendation of
Chief United States Magistrate Judge Susan E.
Schwab of the United States District Court for
the Middle District of Pennsylvania denying the
Petitioner’s Petition for a Writ of Habeas Corpus
is attached hereto as Appendix 3.
JURISDICTION
This Honorable Court has jurisdiction of this
petition to review the judgment of United States
Court of Appeals for the Third Circuit pursuant
to 28 U.S.C. § 1254 (1).
On January 28, 2020, the Third Circuit Court
of Appeals entered its Notice of Judgment in this
matter denying the Petitioner’s request for a
Certificate of Appealability.
CONSTITUTIONAL PROVISIONS
AND STATUTES AT ISSUE
U.S. Constitution – Amendment VI
In all criminal prosecutions, the accused shall
enjoy the right to a speedy and public trial, by an
impartial jury of the State and district wherein
the crime shall have been committed, which
district shall have been previously ascertained by
law, and to be informed of the nature and cause
of the accusation; to be confronted with the

3
witnesses against him; to have compulsory
process for obtaining witnesses in his favor, and
to have the Assistance of Counsel for his defence.
U.S. Constitution – Amendment VIII
Excessive bail shall not be required, nor
excessive fines imposed, nor cruel and unusual
punishments inflicted.
U.S. Constitution – Amendment XIV
Section 1.
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof,
are citizens of the United States and of the state
wherein they reside. No state shall make or
enforce any law which shall abridge the
privileges or immunities of citizens of the United
States; nor shall any state deprive any person of
life, liberty, or property, without due process of
law; nor deny to any person within its
jurisdiction the equal protection of the laws.
28 USC § 2254
(a) The Supreme Court, a Justice thereof, a
circuit judge, or a district court shall
entertain an application for a writ of habeas
corpus in behalf of a person in custody
pursuant to the judgment of a State court
only on the ground that he is in custody in
violation of the Constitution or laws or
treaties of the United States.
***
(d) An application for a writ of habeas corpus on
behalf of a person in custody pursuant to the
judgment of a State court shall not be
granted with respect to any claim that was

4
adjudicated on the merits in State court
proceedings unless the adjudication of the
claim–
(1) resulted in a decision that was contrary
to, or involved an unreasonable application
of, clearly established Federal law, as
determined by the Supreme Court of the
United States; or
(2) resulted in a decision that was based on
an unreasonable determination of the
facts in light of the evidence presented in
the State court proceeding.

5
STATEMENT OF THE CASE
Louis Roderick Ogden is the Petitioner in the
above matter. Mr. Ogden filed a Petition under
28 U.S.C. § 2254 for a Writ of Habeas Corpus by
a person in State Custody.
On August 20, 2019, Chief United States
Magistrate Judge Susan E. Schwab of the United
States District Court for the Middle District of
Pennsylvania issued an Order denying the
Petitioner’s Petition for a Writ of Habeas Corpus.
On September 24, 2019, Chief United States
Magistrate Judge Susan E. Schwab issued an
Order denying the Petitioner’s request for a
Certificate of Appealability.
On January 28, 2020, the United States Court
of Appeals for the Third Circuit entered its
Notice of Judgment and Order in this matter
denying the Petitioner’s request for a Certificate
of Appealability.
The Petitioner Ogden was found guilty in State
Court in Wayne County, Pennsylvania of Murder
in the First Degree. He was sentenced to life
imprisonment without the possibility of parole.
The instant Petition involves Ogden’s filing of a
Petition for Writ of Habeas Corpus in the District
Court, claiming errors of law committed by the
trial court and that the Petitioner was denied the
effective assistance of counsel, as guaranteed by
Art. I, § 9 of the Pennsylvania Constitution and
the Sixth, Eighth and Fourteenth Amendments
of the United States Constitution.
At the time of filing of the Habeas Corpus in
the District Court and continuing to the present

6
date, the Petitioner has been a prisoner in
custody in the Pennsylvania State Correctional
Institution at Somerset, Pennsylvania.
The pertinent facts of Ogden’s conviction are as
follows. On June 20, 2014, the Petitioner was
arrested and charged with homicide. Steven E.
Burlein, Esquire, of the Wayne County Public
Defender’s Office, was appointed as counsel for
Ogden and a jury trial was held on September
21, 2015 before the then President Judge, the
Honorable Raymond Hamill (now Senior status).
On September 22, 2015, the Petitioner, Louis
Roderick Ogden, was convicted of First Degree
Murder. Ogden, after the finding of guilty and
conviction for the hereinbefore mentioned offense
under the laws of Pennsylvania, was sentenced
to undergo a term of “Life Imprisonment without
the possibility of parole”.
After the denial of the Petitioner’s Motion for
Post-Sentence Relief filed by Mr. Ogden’s public
defender, a direct appeal to the Superior Court
was timely filed by the Petitioner/Defendant’s
instant private counsel, Andrew J. Katsock, III,
Esquire, who was not retained by the Petitioner’s
family until after the conviction and sentencing
of Mr. Ogden, and the lower Court’s denial of the
Defendant’s Motion for Post-Sentence Relief.
The Pennsylvania Superior Court affirmed the
trial court’s judgment of sentence on October 11,
2016. Ogden then filed a Petition in State Court
pursuant to Pennsylvania’s Post-Conviction
Relief Act (“PCRA”). Ogden’s Petition under the
PCRA was made within one (1) year of the denial
of the Petitioner’s final direct appeal.
The
Petition was first denied by the Trial Judge,

7
which denial was affirmed by both the
Pennsylvania Superior and Supreme Courts.
The underlying facts in this case involve the
scourge of heroin, the effects of which destroy
families not only in urban areas, but even in
those living among the farms and mountains of
rural Wayne County. Not only were two (2) lives
lost, 1) the victim, 20 year old Rebecca Pisell, the
niece of the Defendant, and 2) Louis R. Ogden,
the Defendant, who was sentenced to life in
prison without the possibility of parole, but the
entire family in this intra-family tragedy has
been destroyed.
The Petitioner, Louis Roderick Ogden, then 51
years of age, was charged with homicide after the
shooting death of his own niece, Rebecca Pisall,
age 20, on June 20, 2014 at his South Canaan
Township, Wayne County home. Both Ogden and
Pisell were heroin drug addicts, with Ogden
allegedly sometimes selling the drug to Pisell.
The incident in question occurred after Pisell
came into Ogden’s home on the morning of June
20, 2014, having him awakened and ultimately
confronting Ogden about an empty bag of heroin
which she had purchased at Ogden’s home from
another person for a mere $60.00. Upon his
awakening, Pisell demanded the return of the
$60.00 that she had paid for the drugs while he
was holding a .38 caliber revolver he kept under
his couch cushion as he slept. One witness told
police that Ogden told her he only meant to scare
his niece by pointing the hand-gun at her but it
“just went off”. Ogden also told law enforcement
he had only meant to scare his niece. Pisell was
shot once in the head when the hand-gun was
discharged, and the victim was hospitalized after

8
the shooting, but having shown no brain activity,
and was taken off life support the following day.
On September 21, 2015, a Jury Trial was
commenced in the Court of Common Pleas of
Wayne County before the then President Judge
Raymond L. Hamill, wherein seven (7) witnesses
testified, only one (1) of whom witnessed the
incident that resulted in Pisell’s death, namely,
Mary Langendorfer. No witnesses were called by
defense counsel to testify in anyway on behalf of
the Petitioner, Ogden.
Trooper Sharon Palmer, of the Pennsylvania
State Police at Honesdale, testified at trial that
Ogden told her that “he had gone to Philadelphia
the night before for heroin and he had used 20
bags of heroin prior to coming home”.
After the Commonwealth rested its case in
chief, after consultation with his court-appointed
attorney, Ogden informed the Court not only that
he would not testify in his own defense, but that
the defense would present no evidence.
The
Court conducted a short colloquy with the
Defendant, on the record.
At the conclusion of the Trial, on September
22, 2015, after deliberating for only 10 or 11
minutes, the jury returned a verdict of finding
Louis Ogden guilty of first degree murder.
Wayne County former President Judge Raymond
L. Hamill then sentenced the Petitioner to life in
a state prison without parole immediately
following the verdict.
On November 10, 2016, the Petitioner Ogden
filed his Petition for Relief under Pennsylvania’s
Post-Conviction Relief Act. (R.R. p. 36a). On

9
April 21, 2017, the Wayne County Court of
Common Pleas took testimony at an evidentiary
hearing on Ogden’s PCRA Petition. The first to
testify was Steven E. Burlein, Esquire, the Chief
Public Defender for Wayne County, who was an
Assistant Public Defender at the time of Trial.
Prior to the instant case, Attorney Burlein had
never before tried a murder case. Other than the
cross-examination
of
the
Commonwealth’s
witnesses, Attorney Burlein did not present any
testimony on behalf of Ogden at the time of Trial.
Questioned as to why he did not present any
testimony on behalf of Ogden, Attorney Burlein
testified that “…our main witness would have
been Louis Ogden and we had a concern as to
how he would testify….(because)… he gave a
quote to the effect that he would come off the
stand and bite the prosecutor on her neck. So,
we decided that would be inappropriate on the
stand if he wasn’t going to handle himself any
better than that.” Burlein admitted that he did
not intend on calling any witnesses on behalf of
the defense. Prior to Trial, Attorney Burlein
received Court approval to hire Dr. Carla
Rodgers in her capacity as a Psychiatrist on
behalf of the defense regarding a possible
intoxication defense. After Dr. Rodgers would
not testify at Trial regarding her opinion as to a
possible intoxication defense, Attorney Burlein
was asked why he did not seek Court approval to
appoint another psychiatrist on behalf of the
defense; his response was that “I certainly
considered that, but I figured we’d gone the road
with a, a psychiatrist who had already given
expert testimony in a triple homicide and was
very well qualified and it just, it wasn’t going to

10
get better if I asked for more funding for a
different doctor”. Even though he knew that the
Commonwealth was calling a toxicologist to
testify as to the lack of negative effects of
narcotics in Ogden’s system at the time of the
shooting, Attorney Burlein admitted that he did
not seek the appointment of a toxicologist
“because I had, I had the psychiatrist.” Attorney
Burlein testified that he also received Court
approval to hire James Sulima as a criminal
investigator on behalf of the defense. In
explaining not calling Sulima as a witness on
behalf of the defense, Attorney Burlein testified
that “…the sum total of the investigation
produced negligible results. There was nothing
positive that would help Mr. Ogden, or we would
have used it.”
Even though Ogden told Attorney Burlein that
he had heavily ingested drugs the night before
the shooting that occurred the following morning,
which was corroborated by other witnesses,
Attorney Burlein testified that “Actually, I would
have liked to have him testify to, if nothing else,
to humanize him for the jury, if I may use that
term, but, it didn’t seem that his testimony was
going to go over well, with what he said to us in
the back of the courtroom.”
Both Attorney
Burlein and James Sulima admitted that Mr.
Ogden told them that at the time of his
confession/admissions to the State Police that he
had ingested drugs that he had on his person in
the bathroom of the State Police Barracks.
Asked why he did not call any character
witnesses on behalf of Mr. Ogden, Attorney
Burlein testified that “we didn’t know of any
after the investigation. We simply didn’t know of

11
any.” As to why he did not even call Ogden’s
parents as character witnesses, Attorney
Burlein’s response was “…I just didn’t think they
added anything to the case that would have
helped, helped our client, other than he’s our
son, which I understand their feelings for him.
But in terms of working in this case, as
testimony, I didn’t see it helping us.” Asked as
to his defenses to trying to get the first degree
murder charge dropped to a lower degree of
homicide, Attorney Burlein testified that “[m]y
thinking was to show the jury that it was a split
second reaction. That he was angered. That he
jumped up off the couch and it happened. And
that would have made it third degree murder
which, in my mind, that’s really what it is, but
that’s not the way the jury saw it.” Attorney
Burlein admitted that he did seek to secure a
ballistics expert, even after Ogden told both him
and the Court-Appointed Investigator Sulima,
that the discharge of the weapon was an
accident. When asked if he rendered competent
representation to Mr. Ogden, Attorney Burlein
testified: “I do, yes. I found this case extremely
difficult simply because there was little, if
nothing, of a defense to put forward”.
James Sulima, the Criminal Investigator
appointed for the defense, testified next, and
admitted that Mr. Ogden told him “…that the
gun accidently went off”. Sulima also testified
that Ogden told him that he was using heroin the
night before the crime was committed. James
Sulima further testified that Mr. Ogden told him
that at the time of his confession/admissions to
the State Police, that he had ingested drugs that
he had on his person in the bathroom of the State

12
Police Barracks and that he could have testified
at Trial regarding the Petitioner’s statement.
Sulima also admitted that witness, David Einsig,
also told him that he used heroin the night
before the crime with Mr. Ogden, and that he
could have testified at Trial regarding the
Einsig’s statement.
The last witness to testify was Ashley
Zimmerman, Esquire, an Assistant Public
Defender who assisted Attorney Burlein in this
Trial. Regarding the decision not to call Mr.
Ogden to testify in his own defense at Trial,
Attorney Zimmerman testified that: “After the
Commonwealth had rested, we had a discussion
with Mr. Ogden in the back room about whether
he would be testifying, or not, whether he wished
to testify.
His statement was to ask if the
District Attorney would be able to question him.
We did advise him that the District Attorney
would be able to question him, and at that time
he said that if she did, he would rip her effing
throat out. And so we decided that that was
probably not a good idea, and he decided not to
testify.” When reminded that Ogden’s ability to
attack the District Attorney would be impossible
in Court because of Court Security, Attorney
Zimmerman stated: “I’m sure it would be
impossible, but I don’t think it would help his
case if he was agitated with the District
Attorney.”
On June 26, 2017, the Court of Common Pleas
of Wayne County, acting as the PCRA Court
denied Ogden’s Petition for Post-Conviction
Relief. After appeal, the Pennsylvania Superior
Court in Commonwealth of Pennsylvania v. Louis
Roderick Ogden, 2315 EDA 2017 denied the

13
Petitioner’s PCRA Appeal.
Thereafter, on
August 29, 2018, the Pennsylvania Supreme
Court denied Ogden’s timely-filed Petition for
Writ of Allocatur.
REASONS FOR GRANTING THE PETITION
In the instant matter, the Petitioner sought
the Third Circuit Court of Appeals to grant his
application for a certificate of appealability
under 28 U.S.C. § 2253 (c) (1). The Petitioner is
a victim of the “life without parole” system—also
known
as
death
by
incarceration—in
Pennsylvania.
In Slack v. McDaniel, this Honorable Court
held that where a habeas petitioner seeks to
initiate an appeal of the dismissal of his petition,
the right to appeal is governed by the
requirements now found at 28 U.S.C. § 2253(c)
which provides, inter alia, that such an appeal
may not be taken unless a circuit Justice or
judge issues a certificate of appealability (COA),
§ 2253(c)(1), and that the COA may issue only if
the applicant has made a substantial showing of
the denial of a constitutional right.
In the
instant case, the District Court found, inter alia,
that Mr. Ogden did not make a substantial
showing of the denial of a constitutional right.
The Petitioner, Louis Roderick Ogden, states
that the following points of law or fact were
overlooked or misapprehended in the Court’s
denial of his application for a certificate of
appealability:
(A) The
Petitioner
asserts
that
he
has
adequately proven his custodial status, as he

14
remains incarcerated in a
State Correctional Facility;

Pennsylvania

(B) The
Petitioner
asserts
that
he
has
adequately proven that he has exhausted the
claims raised in the petition in State Court,
through an appeal of the denial of his PostConviction Relief Act petition by the
Pennsylvania Supreme Court;
(C) The Petitioner asserts that he has made a
substantial showing of the denial of his
constitutional rights and has raised of
record, in both State and Federal Court.
28 U.S.C. 2254(d)(1) reads, in pertinent part,
as follows:
“An application for a writ of habeas corpus
on behalf of a person in custody pursuant
to the judgment of a state court shall not
be granted with respect to any claim that
was adjudicated on the merits in State
court proceedings unless the adjudication
of the claim—(1) resulted in a decision
that was contrary to, or involved an
unreasonable
application
of
clearly
established federal law, as determined by
the Supreme Court of the United States.”
Where the Pennsylvania state court system
makes findings of fact, and conclusions of law,
the findings and conclusions will not be
overturned unless they are “unreasonable.” The
term “unreasonable” means “some increment of
incorrectness beyond error is required...however,
the increment need not be great; otherwise
habeas relief would be limited to state court
decisions so far off the mark as to suggest

15
judicial incompetence.” Francis S. v. Stone, 221
F.3d 100, 111 (2d Cir. 2000).
Where, as here, the Pennsylvania state court
system relies on “FACTS” not supported by the
record, the district court should simply disregard
the State court system and start from scratch.
Everett vs. Beard, 290 F.3d 500, 508 (3d Cir.
2002). “When, as here, AEDPA does not apply for
that reason, the pre-AEDPA standards of review
apply.”
Under that standard, a federal habeas court
owes no deference to a state court’s resolution of
mixed questions of constitutional law and fact.”
Id. at 508 citing Williams vs. Taylor, 529 U.S.
362, 400, 120 S.Ct. 1495, 146 L.Ed.2d 389 (2000).
In Williams, Justice O’Connor stated, “we have
always held that federal courts, even on habeas,
have an independent obligation to say what the
law is” citing Wright vs. West, 505 U.S. 277, 305,
112 S.Ct. 2482, 120 L.Ed.2d 225 (1992). Here,
the State court system’s findings of fact are not
supported by the record; as such, the state
court’s conclusions of law are not entitled to
deferential review.
Strickland v. Washington, 466 U.S. 668, 685,
104 S.Ct. 2052, 2063, 80 L.Ed.2d 674 (1984)
established a two-pronged-test for evaluating
claims of ineffective assistance based on
inadequate legal assistance.
First, the petitioner must plead and eventually
prove that the defense attorney made an error or
errors. Kimmehnan v. Morrison, 477 U.S. 365,
384, 106 S.Ct. 2574, 91 L.Ed.2d 305 (1986)
states, “a single serious error may support a
claim of ineffective assistance of counsel.” The

16
Court added that “this single serious error” could
cause counsel’s performance to fall “below the
level of reasonable professional assistance” even
where “counsel’s performance at trial was
generally creditable enough,” and even where
counsel
made
“vigorous
cross-examination,
attempts to discredit witnesses, and an effort to
establish a different version of the facts.” Id. 477
U.S. at 386. Harrington v. Richter, 562 U.S. 86,
131 S.Ct. 770, 791-92, 178 L.Ed.2d 624 (2011),
Murray vs. Carrier, 477 U.S. 478, 106 S.Ct. 2639,
91 L.Ed.2d 397 (1986). Wiggins v. Smith, 539
U.S. 510, 123 S.Ct. 2527, 156 L.Ed.2d 471 (2003).
Second, the petitioner must show that the
deficient performance prejudiced some aspect of
the case. Prejudice requires the petitioner to
show a “reasonable probability” of a different
outcome, or a probability sufficient to undermine
confidence in the outcome.
A reasonable probability is a standard a less
demanding standard than “more likely than not.”
Strickland, 466 U.S. at 693-94, 104 S.Ct. at 2052
[“A defendant need not show that counsel’s
deficient conduct more likely than not altered the
outcome in the case.”]. It is not a stringent
standard. Branch v. Sweeney, 758 F3d 226 (3d
Cir. 2014), See, for example, Thomas v. Varner,
428 F3d 491, 501 (3d Cir. 2005). In fact, it is less
demanding that the preponderance standard.
Termyn v. Horn, 266 F3d 257, 282 (3d Cir. 2001).
See also: Woodford v. Viscotti, 537 U.S. 19, 22,
123 S.Ct. 357, 359, 154 L.Ed.2d 279 (2002).
(observing that Strickland “specifically rejected
the proposition that the defendant had to prove
it more likely than not that the result had been
altered.”)

17
Strickland recognized that an attorney’s duty
to provide reasonably effective assistance
includes
“the
duty
to
make
reasonable
investigations or make a reasonable decision that
makes particular investigations unnecessary.”
Strickland, 466 U.S. at 691, 104 S.Ct. at 2052;
see also ABA Standards for Criminal Justice:
Prosecution Function and the Defense Function
4-4.1(a) (3d Edition 1993) (“Defense counsel
should conduct a prompt investigation of the
circumstances of the case and explore all avenues
leading to facts relevant to the merits of the
case...”). See also: Rompilla v. Beard, 545 U.S.
374, 387, 125 S.Ct. 2456, 162 L.Ed.2d 360
(2005)(finding ABA standards useful guides to
determining what is reasonable” quoting
Wiggins, 539 U.S. at 524, 123 S.Ct. 2527).
In his Petition under 28 U.S.C. § 2254 for Writ
of Habeas Corpus by a person in State Custody,
Louis Roderick Ogden alleged that his conviction
resulted from one or more errors of his appointed
counsel resulting in the Petitioner suffering from
“ineffective assistance of counsel”, thereby
denying him effective assistance of counsel, as
guaranteed by Art. I, § 9 of the Pennsylvania
Constitution and the Sixth, Eighth and
Fourteenth Amendments of the United States
Constitution. Specifically, Ogden alleged that:
(a) Appointed counsel failed to adequately
investigate and prepare the defense of this
case;
(b) Appointed counsel failed to file and litigate
viable pre-trial motions, including the
seeking of the appointment of expert
witnesses for the defense of (1) a psychiatrist

18
and (2) a toxicologist to testify of the effect of
drugs on the Petitioner as the voluntariness
of his confession to the police and on his lack
of specific intent to commit first degree
murder and (3) a ballistics expert to examine
the weapon involved in the shooting and
testify as to whether the firearm could have
discharged as described by the Petitioner;
(c) Appointed counsel did not present any
witnesses, evidence or adequate argument in
defense of the Commonwealth’s charges
against
the
Petitioner,
including
the
Petitioner and other witnesses who were
available to the defense;
(d) Appointed counsel did not present any
witnesses, evidence or adequate argument of
the Petitioner’s diminished capacity or that
the Petitioner lacked the mental capacity
required to form a specific intent to kill, or
otherwise presenting a defense that would
reduce the charge from first degree murder
to a lower degree of criminal homicide;
(e) Appointed counsel did not present any
witnesses, evidence or adequate argument of
the Petitioner’s voluntary impairment or
otherwise presenting a defense that would
reduce the charge from first degree murder
to a lower degree of criminal homicide;
(f) Appointed counsel did not present any
witnesses, evidence or adequate argument
evidencing that the Commonwealth failed to
prove that the Petitioner acted with express
malice or that the Petitioner committed a
premeditated killing of the victim;

19
(g) Appointed counsel did not present any
witnesses, evidence or adequate argument
evidencing that the killing was committed
spontaneously and that the Petitioner could
only be convicted of one of the other homicide
crimes established by Pennsylvania law;
(h) Appointed counsel did not present any
witnesses,
evidence,
adequate
crossexamination or argument that established
that the Petitioner had used many bags of
heroin late into the night and morning of the
fatal shooting, and that the Petitioner even
used heroin while at the State Police
barracks after he was taken into custody;
(i) Appointed counsel failed to adequately
investigate and prepare for sentencing in
this case;
(j) Appointed counsel did not present any
witnesses, evidence or adequate argument
that this Honorable Court did not possess
statutory authorization to impose the
sentence of “Life Imprisonment without the
possibility of parole” and that the sentence
was illegal and must be vacated;
(k) Appointed counsel failed to timely object to
improper computation of the Petitioner’s
sentence in the above-captioned case.
In
order
to
obtain
a
Certificate
of
Appealability, the Petitioner must make a
“substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2). This
generally requires a “showing that reasonable
jurists could debate whether … the petition
should have been resolved in a different manner

20
or that the issues presented were adequate to
deserve encouragement to proceed further.” 28
U.S.C. § 2253(c); Slack v. McDaniel, 529 U.S.
473, 484 (2000). However, the Petitioner need
not show that he should prevail on the merits.
See e.g., Lambright v. Stewart, 220 F.3d 1022,
1025, [“... [O]bviously the petitioner need not
show that he should prevail on the merits. He
has already failed in that endeavor”]. Rather, the
Petitioner is merely required to make the
“modest” showing that “reasonable jurists would
find the district court’s assessment of the
constitutional claims debatable or wrong.” Slack
v. McDaniel, 529 U.S. 473, 484 (2000). As
explained in Jennings v. Woodford, 290 F.3d
1006 (9th Cir. 2002), the substantial showing
standard
required
for
a
Certificate
of
Appealability is “relatively low.” Id., at 1011,
citing Slack, supra.
Hence, a Certificate of Appealability must
issue if any of the following apply: (1) the issues
are debatable among reasonable jurists; (2)
another court could resolve the issues differently;
or (3) the questions raised are adequate enough
to encourage the petitioner to proceed further.
Miller-El, 537 U.S. at 327; Slack v. McDaniel,
529 U.S. 473, 484 (2000).
Finally, “The court must resolve doubts about
the propriety of a Certificate of Appealability in
the petitioner’s favor.” Jennings, supra, citing
Lambright, supra, at 1025.”
In the present case, reasonable Jurists could
differ as to whether Counsel was ineffective. In
the present case, reasonable Jurists could differ
as to whether the Trial Court erred and abused

21
its discretion, or denied the Petitioner due
process, in denying the Petitioner’s request for a
jury charge regarding the Petitioner’s Voluntary
Intoxication
(8.308B),
which
would
have
instructed the jury of the possibility of a finding
of
Third
Degree
Murder
or
Voluntary
Manslaughter in this case, based upon the level
of drugs consumed by the Petitioner prior to the
shooting of the victim.
In the present case, reasonable Jurists could
differ as to whether the Trial Court erred and
abused its discretion, as well as denied the
Petitioner
due
process,
in
denying
the
Petitioner’s Motion for Post Trial Relief pursuant
to Pennsylvania Rule of Criminal Procedure 606
seeking a judgment of acquittal and/or for a new
trial with regard to the sufficiency of the
evidence
presented
at
trial,
as
the
Commonwealth did not meet its burden of proof
that the Petitioner acted with premeditation,
and the evidence was insufficient to prove
specific intent to kill and/or malice, beyond a
reasonable doubt, as required to permit a
conviction of First Degree Murder.
In the present case, reasonable Jurists could
differ as to whether the Trial Court erred and
abused its discretion, or denied the Petitioner
due process, in denying the Petitioner’s Motion
for Post-Trial Relief seeking a new trial, in light
of the fact that the jury only deliberated for 10 or
11 minutes before returning a verdict of guilty,
and in such time could not have chosen a
foreperson, reviewed the evidence, considered the
Court’s instructions, discussed the presumption
of innocence and the need to find the Petitioner
guilty beyond a reasonable doubt, discussed the

22
elements of First Degree Murder required to find
the Petitioner guilty, voted to convict and then
inform the Court’s tipstaff of its decision, making
it clear that the jury’s verdict was the product of
prejudicial influence and/or based on insufficient
deliberation by the Jury on the evidence.
The state courts’ decisions rejecting Mr.
Ogden’s claims are contrary to, and unreasonable
applications of, clearly established Supreme
Court precedent. See 28 U.S.C. § 2254(d)(1).
Therefore, the Petitioner, Louis Ogden, has made
the required substantial showing of the denial of
a constitutional right. Miller-El v. Cockrell, 537
U.S. 322, 336 (2003).
CONCLUSION
Based on the foregoing, the Petitioner
respectfully submits that this Petition for Writ of
Certiorari should be granted.
Dated: April __, 2020
Respectfully submitted,
ANDREW J. KATSOCK, III
Counsel of Record
15 Sunrise Drive
Wilkes-Barre, Pennsylvania 18705
Telephone: (570) 829-5884
e-mail: ajkesq@comcast.net
Attorney for the Petitioner,
Louis Roderick Ogden

APPENDIX

1a
Appendix 1
UNITED STATES COURT OF APPEALS
FOR THE T HIRD C IRCUIT
OFFICE OF THE CLERK
[LETTERHEAD]
January 28, 2020
Ronald Eisenberg
Office of Attorney General of Pennsylvania
1600 Arch Street, Suite 300
Philadelphia, PA 19103
Andrew J. Katsock III
15 Sunrise Drive
Wilkes-Barre, PA 18705
Shelley L. Robinson
Wayne County Office of District Attorney
925 Court Street
Wayne County Court House
Honesdale, PA 18431

__________
RE: L OUIS O GDEN V .
S UPERINTENDENT S OMERSET SCI,

ET AL

__________
Case Number: 19-3157
District Court Case Number: l-19-cv-00609

__________

82658 • KATSOCK • APPENDIX 1

AL 4/13/20

2a
ENTRY OF JUDGMENT
Today, January 28, 2020 the Court issued a case
dispositive order in the above-captioned matter
which serves as this Court's judgment. Fed. R.
App. P. 36.
If you wish to seek review of the Court’s decision,
you may file a petition for rehearing. The procedures
for filing a petition for rehearing are set forth in
Fed. R. App. P. 35 and 40, 3rd Cir. LAR 35 and 40,
and summarized below.
Time for Filing:
14 days after entry of judgment.
45 days after entry of judgment in a civil case if
the United States is a party.
Form Limits:
3900 words if produced by a computer, with a
certificate of compliance pursuant to Fed. R. App.
P. 32(g).
15 pages if hand or type written.
Attachments:
A copy of the panel's opinion and judgment only.
Certificate of service.
Certificate of compliance if petition is produced by
a computer.
No other attachments are permitted without first
obtaining leave from the Court.
Unless the petition specifies that the petition
seeks only panel rehearing, the petition will be
construed as requesting both panel and en banc
rehearing. Pursuant to Fed. R. App. P. 35(b)(3), if
separate petitions for panel rehearing and rehearing
en banc are submitted, they will be treated as a
single document and will be subject to the form

82658 • KATSOCK • APPENDIX 1

AL 4/13/20

3a
limits as set forth in Fed. R. App. P. 35(b)(2). If
only panel rehearing is sought, the Court's rules
do not provide for the subsequent filing of a petition
for rehearing en banc in the event that the petition
seeking only panel rehearing is denied.
Please consult the Rules of the Supreme Court of
the United States regarding the timing and
requirements for filing a petition for writ of
certiorari.
Very truly yours,
Patricia S. Dodszuweit, Clerk
By: s/ Caitlyn
Case Manager
267-299-4956
Cc:

Mr. Peter J. Welsh

82658 • KATSOCK • APPENDIX 1

AL 4/13/20

4a
DLD 072

December 19, 2019

UNITED STATES COURT OF APPEALS
FOR THE T HIRD C IRCUIT

__________
C.A. N O . 19-3157

__________
L OUIS R ODERICK O GDEN ,
Appellant
—v.—
S UPERINTENDENT S OMERSET SCI;

ET AL

__________
(M.D. Pa. Civ. No. l-19-cv-00609)

__________
Present: RESTREPO, PORTER and NYGAARD,
Circuit Judges
Submitted is Appellant’s motion for a
certificate of appealability in the abovecaptioned case.
Respectfully,
Clerk

82658 • KATSOCK • APPENDIX 1

AL 4/13/20

5a
ORDER
Appellant’s request for a certificate of
appealability is denied because he has not made
a “substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c).
Appellant’s claim that he was denied ineffective
assistance of counsel lacks merit. See
Strickland v. Washington, 466 U.S. 668, 687,
694 (1984). To the extent Appellant raised
independent claims of error in the state court
PCRA proceedings, those claims are not
cognizable. See Lambert v. Blackwell, 387 F.3d
210, 247 (3d Cir. 2004). To the extent Appellant
raised other cognizable claims that are
predicated on the ineffective assistance of
counsel, those claims lack merit, as the District
Court concluded. Finally, we note that
Appellant has presented new claims in his
application for a certificate of appealability. To
the extent that he thus requests permission to
file a second or successive § 2254 petition
pursuant to 28 U.S.C. § 2244, see generally
United States v. Santarelli, 929 F.3d 95, 105-06
(3d Cir. 2019), we decline to grant permission
because he does not meet the requirements of 28
U.S.C. §§ 2244(b)(2)
By the Court,
s/ David J. Porter
Circuit Judge
Dated: January 28, 2020

82658 • KATSOCK • APPENDIX 1

AL 4/13/20

6a
CJG/cc:

Andrew J. Katsock, III, Esq.
Shelley L. Robinson, Esq
Ronald Eisenberg, Esq.
[SEAL]
A true copy
/s/ Patricia S. Dodszuweit
Patricia S. Dodszuweit, Clerk
Certified Order Issued in Lieu of Mandate

82658 • KATSOCK • APPENDIX 1

AL 4/13/20

7a
Appendix 2
IN THE UNITED STATES DISTRICT COURT
FOR THE M IDDLE D ISTRICT OF P ENNSYLVANIA

__________
CIVIL NO. l:19-CV-00609
(Chief Magistrate Judge Schwab)

__________
L OUIS R ODERICK O GDEN ,
Petitioner,
—v.—
S UPERINTENDENT E RIC T ICE ,
Respondent.

__________
ORDER
September 24, 2019
On August 20, 2019, we issued a memorandum
and implementing order denying the petition for
writ of habeas corpus filed by the petitioner, Louis
Roderick Ogden (“Ogden”). The case is now before
us on an application for issuance of a certificate of
appealability (“COA”) under 28 U.S.C. § 2253.
For the reasons that follow, we will deny the
application.

82658 • KATSOCK • APPENDIX 2

AL 4/13/20

8a
“As mandated by federal statute, a state prisoner
seeking a writ of habeas corpus has no absolute
entitlement to appeal a district court’s denial of his
petition.” Miller-El v. Cockrell, 537 U.S. 322, 335
(2003) (citing 28 U.S.C. § 2253). “Before an appeal
may be entertained, a prisoner who was denied
habeas relief in the district court must first seek and
obtain a COA from a circuit justice or judge.”1 Id. at
335-36. “[U]ntil a COA has been issued federal courts
of appeals lack jurisdiction to rule on the merits of
appeals from habeas petitioners.” Id. at 336.
Under 28 U.S.C. § 2253(c)(2), “a certificate of
appealability shall issue only where ‘the applicant
has made a substantial showing of the denial of a
constitutional right.’” Romansky v. Superintendent
Greene SCI, 933 F.3d 293, 297 (3d Cir. 2019) (quoting
28 U.S.C. § 2253(c)(2)). This requires the petitioner to
show “that reasonable jurists could debate whether
(or, for that matter, agree that) the petition should
have been resolved in a different manner.” Id.
(quoting Slack v. McDaniel, 529 U.S. 473, 484 (2000)).
The analysis required to determine whether a COA
should be issued “is not coextensive with a merits
analysis.” Buck v. Davis, 137 S. Ct. 759, 773 (2017).
“At the COA stage, the only question is whether the
1

Although 28 U.S.C. § 2253 requires a certificate of
appealability to issue from “a circuit justice or judge,” case
law establishes that this language allows certificates of
appealability to be issued by district courts as well as circuit
judges. See Gonzalez v. Thaler, 565 U.S. 134, 143 n.5 (2012);
United States v. Eyer, 113 F.3d 470, 473 (3d Cir. 1997).
United States magistrate judges may also issue certificates
of appealability when the parties have consented to the
jurisdiction of a magistrate judge. Hanson v. Mahoney, 433
F.3d 1107, 1112 (9th Cir. 2006).

82658 • KATSOCK • APPENDIX 2

AL 4/13/20

9a
applicant has shown that ‘jurists of reason could
disagree with the district court’s resolution of his
constitutional claims or that jurists could conclude
the issues presented are adequate to deserve
encouragement to proceed further.’” Id. (quoting
Miller-El, 537 U.S. at 336). “[A] claim can be
debatable even though every jurist of reason might
agree, after the COA has been granted and the case
has received full consideration, that petitioner will
not prevail.” Id. at 774 (quoting Miller-El, 537 U.S. at
338).
Ogden has not made a substantial showing of the
denial of a constitutional right. As we noted in our
memorandum addressing the merits of his petition,
all of Ogden’s claims for habeas corpus relief “arise
from a predicate assertion that his trial counsel
provided ineffective assistance of counsel.” Doc. 9 at
9. Nevertheless, despite ineffective assistance of
counsel being the basis for all his claims, Ogden does
not develop any arguments as to that issue other
than the conclusory assertion that “reasonable
Jurists could differ as to whether Counsel was
ineffective.” Doc. 11 at 4. We find this does not
establish a substantial showing of the denial of a
constitutional right.
Moreover, we find that reasonable jurists could not
disagree with our decision to deny Ogden’s habeas
corpus petition. As we noted in our memorandum
addressing the merits of Ogden’s petition, the
Pennsylvania Superior Court found no merit to
Ogden’s ineffective assistance of counsel claims
because they were based on evidence or testimony
that his trial counsel failed to present, but he did not
produce any evidence to show that the evidence or

82658 • KATSOCK • APPENDIX 2

AL 4/13/20

10a
testimony actually could have been presented at
trial. See doc. 9 at 13-14. Accordingly, IT IS
ORDERED that Ogden’s application for issuance of
a certificate of appealability (doc. 11) is DENIED.
S/Susan E. Schwab
Susan E. Schwab
Chief United States Magistrate Judge

82658 • KATSOCK • APPENDIX 2

AL 4/13/20

11a
Appendix 3
IN THE UNITED STATES DISTRICT COURT
FOR THE M IDDLE D ISTRICT OF P ENNSYLVANIA

__________
CIVIL NO. l:19-CV-00609
(Chief Magistrate Judge Schwab)

__________
L OUIS R ODERICK O GDEN ,
Petitioner,
—v.—
S UPERINTENDENT E RIC T ICE , et al.,
Respondents.

__________
ORDER
August 20, 2019
For the reasons set forth in the accompanying
memorandum (doc. 9), IT IS ORDERED that the
petition for writ of habeas corpus is DENIED and
the Clerk of Court is directed to close this case. IT
IS FURTHER ORDERED that the Pennsylvania
Attorney General and Patrick L. Robinson are
dismissed as respondents.

82658 • KATSOCK • APPENDIX 3

AL 4/13/20

12a
S/Susan E. Schwab
Susan E. Schwab
Chief United States Magistrate Judge

82658 • KATSOCK • APPENDIX 3

AL 4/13/20

13a
IN THE UNITED STATES DISTRICT COURT
M IDDLE D ISTRICT OF P ENNSYLVANIA

FOR THE

__________
CIVIL NO. l:19-CV-00609
(Chief Magistrate Judge Schwab)

__________
L OUIS R ODERICK O GDEN ,
Petitioner,
—v.—
S UPERINTENDENT E RIC T ICE , et al.,
Respondents.

__________
MEMORANDUM
I.

Introduction.

This is a habeas corpus case filed under 28 U.S.C. §
2254 in which the petitioner, Louis Roderick Ogden
(“Ogden”), argues that his conviction should be
overturned because he received ineffective assistance
of counsel and because the state court did not
overturn his conviction on the grounds of his trial
counsel’s alleged ineffectiveness. The merits of
Ogden’s claims were previously considered and
denied by the Pennsylvania Superior Court. Because
we find that the Superior Court’s decision was not

82658 • KATSOCK • APPENDIX 3

AL 4/13/20

14a
contrary to clearly established federal law and did
not involve an unreasonable application of clearly
established federal law, we will deny Ogden’s
petition.
II. Background and Procedural History.
On September 22, 2015, Ogden was convicted of
first-degree murder in the Wayne County Court of
Common Pleas and sentenced to life in prison for the
killing of his niece, Rebecca Pisall (“Pisall”).
Commonwealth v. Ogden, No. 3148 EDA 2015, 2016
WL 5923026, at *1 (Pa. Super. Ct. Oct. 11, 2016). The
killing occurred on June 20, 2014, when Pisall came
to Ogden’s home to purchase heroin from him. Id.
Ogden was not awake at the time that Pisall arrived,
so Pisall spoke briefly with Ogden’s daughter, Mary
Langendorfer (“Langendorfer”). Id. Langendorfer
woke Ogden up and told him that Pisall wanted to
buy heroin. Id. Ogden gave Langendorfer a small bag
of heroin and told her to “take care of it.” Id.
Langendorfer then gave the bag of heroin to Pisall in
exchange for $60 and brought the money to Ogden.
Id. When Langendorfer returned to the kitchen,
Pisall claimed that the bag had been empty and
demanded her money back. Id. Langendorfer told
Ogden about Pisall’s complaint, at which point Ogden
pulled out a loaded gun, walked into the kitchen, and
shot Pisall in the head “from 4-8 inches away.” Id.
Ogden then pointed the gun at Langendorfer and
said, “it just went off.” Id. Shortly after Pisall was
killed, Ogden called 911 and told police that he had
shot Pisall. Id. He was then read his Miranda rights,
after which he provided a statement to the police on
Pisall’s killing. Id.

82658 • KATSOCK • APPENDIX 3

AL 4/13/20

15a
Ogden was tried for murder in the Wayne County
Court of Common Pleas. Id. The Commonwealth
relied on, among other evidence, testimony from
Langendorfer and Ogden’s statement to the police.
Id. After trial, Ogden was convicted of first-degree
murder and sentenced to life in prison. Id. Ogden
appealed his conviction to the Pennsylvania Superior
Court, arguing (1) that the trial court erred by not
instructing the jury on a defense of voluntary
intoxication even though Ogden had consumed a
substantial amount of heroin in the hours leading up
to Pisall’s killing; (2) that the Commonwealth had
presented insufficient evidence to convict him of firstdegree murder; (3) that the trial court erred in
denying his motion for a new trial even though the
jury deliberated for only 10-11 minutes before
reaching a verdict; and (4) that the trial court erred
by not striking the jury despite a venire person
allegedly saying “if he made it this far, I’d figure he’d
have to be guilty.” Id. at *2. The Superior Court
found that the trial court properly exercised its
discretion and that there were no merits to the issues
Ogden raised, and accordingly affirmed his
conviction. Id. at *6. Ogden did not appeal the
Superior Court’s decision to the Pennsylvania
Supreme Court. Doc. 1 at 2.
On November 10, 2016, Ogden filed a petition in
the Court of Common Pleas challenging his
conviction under the PCRA. See doc. 3-7 at 1;
Commonwealth v. Ogden, No. CP-64-CR-00003192014 (Wayne Cty. Ct. Com. Pl. Nov. 10, 2016). Ogden
argued that his trial counsel provided ineffective
assistance of counsel because he failed to adequately
investigate and prepare Ogden’s defense, failed to file
and litigate pre-trial motions, failed to present

82658 • KATSOCK • APPENDIX 3

AL 4/13/20

16a
witnesses or evidence on Ogden’s behalf, failed to
adequately prepare for sentencing, and failed to
object at sentencing. Doc. 3-7 at 2-4. Ogden further
argued that the trial court erred because trial
counsel’s ineffectiveness “so undermined the truthdetermining process that no reliable adjudication of
guilt or innocence could have taken place.” Id. at 5.
The court denied Ogden’s PCRA petition on June 26,
2017, and he appealed the denial to the Superior
Court. Commonwealth v. Ogden, No. 2315 EDA 2017,
2018 WL 700650, *1 (Pa. Super. Ct. Feb. 5, 2018).
The Superior Court affirmed the denial of Ogden’s
PCRA petition, noting that Ogden “failed to satisfy
his burdens of production and persuasion on his
ineffectiveness of counsel claims” and finding that
Ogden’s trial counsel did not provide ineffective
assistance of counsel. Id. at *4. Following the
Superior Court’s decision, Ogden filed a petition for
allowance of appeal with the Pennsylvania Supreme
Court, which denied the petition on August 29, 2018.
Commonwealth v. Ogden, 192 A.3d 1109, 1110 (Pa.
2018).
Ogden filed the petition that initiated this case on
April 9, 2019 and raised four claims of error. Doc. 1.
First, Ogden argues that his trial counsel provided
ineffective assistance of counsel because (1) he failed
to adequately investigate or prepare Ogden’s defense,
(2) he failed to file pretrial motions seeking the
appointment of a psychiatrist or a toxicologist to
testify on a voluntary intoxication defense and (3) he
failed to file a pretrial motion seeking the
appointment of a ballistics expert to testify that the
gun discharged accidentally when Ogden shot Pisall.
Id. at 5. Second, Ogden argues that the trial court
erred “in not finding that the failure of the

82658 • KATSOCK • APPENDIX 3

AL 4/13/20

17a
Defendant’s appointed counsel to present any
witnesses, evidence or adequate argument of the
Petitioner’s impairment violated the Defendant’s
Eighth Amendment rights under the United States
Constitution in that the jury must be able to consider
and give full effect to all relevant mitigating evidence.”
Id. at 7. Third, Ogden argues that the trial court
erred because his trial counsel’s ineffectiveness “so
undermined the truth-determining process that no
reliable adjudication of guilt or innocence could have
taken place.” Id. at 8. Finally, Ogden argues that the
state courts erred in not finding that the failure to
raise his claims earlier stemmed from his trial
counsel’s ineffectiveness. Id. at 10.
The respondents filed a response to Ogden’s
petition and a brief on May 1, 2019. Docs. 3-4. The
respondents argue that the petition should be denied
because the state courts that considered Ogden’s
claims during his PCRA proceedings “made an
exhaustive examination” of Ogden’s ineffective
assistance of counsel claim “and specifically found
that there was no basis for that claim.” Doc. 4 at 6.
The respondents further argue that the state court
decision denying Ogden’s PCRA petition was not
contrary to clearly established federal law. Id.
On May 15, 2019, Ogden filed a largely irrelevant
reply brief in which he discusses this district’s recent
overturning of the conviction of Graham Spanier. See
doc. 7 at 2-3; see also Spanier v. Libby, No. 3:19-CV00523 (M.D. Pa. Apr. 30, 2019). Ogden acknowledges
that the Spanier case and this case “are different,”
but cites the case “to illustrate that the mere fact
that Ogden’s conviction was upheld in the State court
system is not evidence that the Petitioner’s rights
were not violated, and, ignored by the State Court

82658 • KATSOCK • APPENDIX 3

AL 4/13/20

18a
system.” id. at 3. Ogden then argues that “[t]he state
courts’ decisions rejecting Mr. Ogden’s claims are
contrary to, and unreasonable applications of, clearly
established Supreme Court precedent,” but does not
cite any Supreme Court precedents in support of this
statement. Id.
On May 23, 2019, the parties consented to the
jurisdiction of a United States Magistrate Judge and
the undersigned became the presiding judge in this
case. We consider Ogden’s claims for relief below.
III. Discussion.
A. The Only Proper Respondent in This
Case Is Eric Tice.
Ogden’s petition names as respondents the
Superintendent of SCI Somerset, Eric Tice;
Pennsylvania Attorney General Josh Shapiro; and
Wayne County District Attorney Patrick L. Robinson.
Pursuant to 28 U.S.C. § 2243, the writ of habeas
corpus, or order to show cause, shall be directed to
the petitioner’s custodian. The warden of the prison
where the petitioner is held is considered the
custodian for purposes of a habeas action. Rumsfeld
v. Padilla, 542 U.S. 426, 442 (2004). Ogden is
incarcerated at SCI Somerset, so Tice is the proper
respondent as the warden of that prison. Shapiro and
Robinson are not Ogden’s custodian. Accordingly, we
will dismiss Shapiro and Robinson as respondents.
B. Habeas Corpus Review Under AEDPA.
“The Antiterrorism and Effective Death Penalty
Act [“AEDPA”] limits the power of a federal court to
grant habeas relief to a person in custody pursuant to
a state court judgment.” Han Tak Lee v. Glunt, 667
F.3d 397, 402 (3d Cir. 2012). A federal court may not

82658 • KATSOCK • APPENDIX 3

AL 4/13/20

19a
grant habeas corpus relief with respect to any claim
that was adjudicated on the merits in state court
unless the state court’s adjudication:
(i) resulted in a decision that was contrary
to, or involved an unreasonable application
of, clearly established Federal law, as
determined by the Supreme Court of the
United States; or
(ii) resulted in a decision that was based
on an unreasonable determination of the
facts in light of the evidence presented in
the State court proceeding.
Antiterrorism and Effective Death Penalty Act of
1996, Pub. L. No. 104-132, 110 Stat. 1214, § 104
(codified as amended at 28 U.S.C. § 2254(d)).
AEDPA imposes a “highly deferential standard
[which] ‘reflects the view that habeas corpus is a
guard against extreme malfunctions in the state
criminal justice systems, not a substitute for ordinary
error correction through appeal.’” Dennis v. Sec’y, Pa.
Dep’t of Corrs., 834 F.3d 263, 281 (3d Cir. 2016)
(quoting Harrington v. Richter, 562 U.S. 86, 102-03
(2011)). “[H]abeas corpus is not to be used as a
second criminal trial, and federal courts are not to
run roughshod over the considered findings and
judgments of the state courts that conducted the
original trial and heard the initial appeals.”
Dellavecchia v. Sec’y Pa. Dep’t of Corrs., 819 F.3d
682, 692 (3d Cir. 2016) (quoting Williams v. Taylor,
529 U.S. 362, 405-06 (2000)).
“A state court decision is ‘contrary to’ clearly
established federal law if the state court (1) ‘applies a
rule that contradicts the governing law’ set forth in
Supreme Court precedent or (2) ‘confronts a set of

82658 • KATSOCK • APPENDIX 3

AL 4/13/20

20a
facts that are materially indistinguishable from a
decision of the Supreme Court and nevertheless
arrives at a result different’ from that reached by the
Supreme Court.” Dennis, 834 F.3d at 280 (quoting
Williams, 529 U.S. at 405-06).
“A state court decision is an ‘unreasonable
application of federal law’ if the state court ‘identifies
the correct governing legal principle,’ but ‘unrea sonably applies that principle to the facts of the
prisoner’s case.’” Id. at 281 (quoting Williams, 529
U.S. at 413). “Habeas relief may not be granted on
the basis that the state court applied clearly
established law incorrectly; rather, the inquiry is
‘whether the state court’s application of clearly
established federal law was objectively unreason able.’” Id. (internal emphasis omitted) (quoting
Williams, 529 U.S. at 409).
“[A] state court decision is based on an
‘unreasonable determination of the facts’ if the state
court’s factual findings are ‘objectively unreasonable
in light of the evidence presented in the state-court
proceeding,’ which requires review of whether there
was sufficient evidence to support the state court’s
factual findings.” Id. at 281 (quoting Miller-El v.
Cockrell, 537 U.S. 322, 340 (2003)).
C. Ogden’s Trial Counsel Did Not
Provide Ineffective Assistance of
Counsel.
While Ogden raises four claims of error in his
petition for writ of habeas corpus, all four claims
arise from a predicate assertion that his trial counsel
provided ineffective assistance of counsel. See doc. 1
at 5 (arguing ineffective assistance of counsel); id. at
7 (arguing that trial court erred by not finding that

82658 • KATSOCK • APPENDIX 3

AL 4/13/20

21a
trial counsel’s ineffective assistance led to
insufficient consideration of mitigating evidence by
the jury); id. at 8 (arguing that trial court erred by
not finding that trial counsel’s ineffective assistance
undermined the truth-determining process); id. at 10
(arguing that state court erred by not finding that
trial counsel was ineffective for failing to raise
arguments at earlier stage of litigation). Accordingly,
we begin our analysis with the legal standards
governing ineffective assistance of counsel claims.
“[T]he right to counsel is the right to the effective
assistance of counsel.” Strickland v. Washington, 466
U.S. 668, 686 (1984). “The benchmark for judging
any claim of ineffectiveness must be whether
counsel’s conduct so undermined the proper
functioning of the adversarial process that the trial
cannot be relied on as having produced a just result.”
Id.
Under Strickland, a showing of ineffective
assistance of counsel has two components:
First, the defendant must show that
counsel’s performance was deficient. This
requires showing that counsel made errors
so serious that counsel was not functioning
as the “counsel” guaranteed the defendant
by the Sixth Amendment. Second, the
defendant must show that the deficient
performance prejudiced the defense. This
requires showing that counsel’s errors were
so serious as to deprive the defendant of a
fair trial, a trial whose result is reliable.
Unless a defendant makes both showings, it
cannot be said that the conviction or death
sentence resulted from a breakdown in the

82658 • KATSOCK • APPENDIX 3

AL 4/13/20

22a
adversary process that renders the result
unreliable.
Id. at 687.
Under the first component of the Strickland test, a
petitioner must establish that his counsel’s
performance was deficient, which requires a showing
“that counsel’s representation fell below an objective
standard of reasonableness.” Id. at 688. “The proper
measure of attorney performance remains simply
reasonableness under prevailing professional norms.”
Id. In addition, “[j]udicial scrutiny of counsel’s
performance must be highly deferential.” Id. at 689.
“[A] court must indulge a strong presumption that
counsel’s conduct falls within the wide range of
reasonable professional assistance.” Id.
Under the second component of the Strickland test,
a petitioner must establish prejudice, which requires
the petitioner to establish a “reasonable probability
that, but for counsel’s unprofessional errors, the
result of the proceeding would have been different.”
Id. at 694. “A reasonable probability is a probability
sufficient to undermine confidence in the outcome.”
Id. A showing of such a reasonable probability
“requires a ‘substantial,’ not just ‘conceivable,’
likelihood of a different result.” Cullen v. Pinholster,
563 U.S. 170, 189 (2011) (quoting Richter, 562 U.S. at
112).
“Surmounting Strickland’s high bar is never an
easy task.” Padilla v. Kentucky, 559 U.S. 356, 371
(2010). “Even under de nova review, the standard for
judging counsel’s representation is a most deferential
one.” Richter, 562 U.S. at 105. “Establishing that a
state court’s application of Strickland was unreasonable under § 2254(d) is all the more difficult.” Id.

82658 • KATSOCK • APPENDIX 3

AL 4/13/20

23a
“The standards created by Strickland and § 2254(d)
are both highly deferential, and when the two apply
in tandem, review is ‘doubly’ so.” Id. (internal
quotation marks omitted) (quoting Knowles v.
Mirzayance, 556 U.S. 111, 123 (2009)).
Here, the Pennsylvania Superior Court considered
Ogden’s ineffective assistance of counsel claims on
appeal from the denial of his PCRA petition. Ogden,
2018 WL 700650, at *2-4. The court noted that two
witnesses testified at Ogden’s PCRA petition: his
trial counsel, Steven E. Burlein (“Burlein”), and
James Sulima (“Sulima”), a private investigator who
had conducted an investigation of the case for
Burlein. Id. at *2. According to Beurlein’s testimony,
Ogden chose not to testify at trial because of concerns
over how he would conduct himself on crossexamination by the Commonwealth’s attorney. Id.
Beurlein testified that he consulted with a
psychiatrist, Dr. Carla Rogers (“Rogers”), about the
possibility of a voluntary intoxication defense at trial,
but that Rogers refused to testify on Ogden’s behalf
because she believed that Ogden was “a world class
B.S. artist” and she could not believe the information
that he told her. Id. Beurlein testified that he chose
not to have Sulima testify at trial because “the sum
total of the investigation produced negligible results.”
Id. Beurlein also testified that he chose to not call a
ballistics expert at trial because “there was really no
question as to how ... the incident occurred. There
was no question as to what weapon was used or the
bullet that pierced the skull. There was no question
as to any of that.” Id. (omission in original). Sulima
testified that in conducting his investigation, he had
interviewed Ogden and other witnesses, none of

82658 • KATSOCK • APPENDIX 3

AL 4/13/20

24a
whom would have helped Ogden’s case “in any way.”
Id. at *3.
In denying Ogden’s claim, the court noted that it
did not need to discuss Ogden’s arguments at length
because he “produced limited evidence during the
PCRA hearing and, in so doing, failed to satisfy his
burdens of production and persuasion on his
ineffectiveness of counsel claims.” Id. at *4. The court
found that there was no arguable merit to Ogden’s
claim that his trial counsel was ineffective for failing
to call an expert witness to testify on his voluntary
intoxication. Id. The court noted that Ogden did not
call a toxicologist or introduce any other evidence at
the PCRA hearing to establish that he was
intoxicated on the night of the murder, and thus
there was no merit to a claim that his trial counsel
had erred by failing to press a voluntary intoxication
defense. Id. The court similarly concluded there was
no merit to the claim that trial counsel erred by
failing to introduce a ballistics expert since Ogden
did not present a ballistics expert at the PCRA
hearing to testify that his gun discharged
accidentally. Id. Finally, the court found that trial
counsel was not unreasonable in failing to present
any witnesses or evidence on Ogden’s behalf. Id. The
court noted there was no indication that Ogden or
any character witnesses were willing to testify at his
trial and noted that any testimony from Sulima
would have been inadmissible hearsay. Id.
The Superior Court’s decision finding that Ogden’s
trial counsel was not ineffective was not contrary to
clearly established federal law, nor did it involve an
unreasonable application of clearly established
federal law. The court found no merit to Ogden’s
claims because they were based on evidence or

82658 • KATSOCK • APPENDIX 3

AL 4/13/20

25a
testimony that trial counsel did not present at trial,
but Ogden produced no evidence or testimony at the
PCRA hearing to show that trial counsel even could
have presented the evidence or testimony at trial. See
id. at *4. The court’s decision was therefore in line
with Supreme Court precedent under Strickland
because there was no merit to the claim that trial
counsel’s conduct “fell below an objective standard of
reasonableness.” Strickland, 466 U.S. at 688. Thus,
because the Superior Court did not err in denying
Ogden’s ineffective assistance of counsel claims and
because all of Ogden’s claims for habeas corpus relief
are based on a predicate assertion of ineffective
assistance of counsel, we will deny Ogden’s petition.
IV. Conclusion.
The Superior Court’s decision that Ogden’s trial
counsel was not ineffective was neither contrary to,
nor involved an unreasonable application of, clearly
established federal law. Ogden’s petition for writ of
habeas corpus is therefore denied because all of the
claims in his petition are based on a predicate
assertion of ineffective assistance of counsel. An
appropriate implementing order follows.
S/Susan E. Schwab
Susan E. Schwab
Chief United States Magistrate Judge

82658 • KATSOCK • APPENDIX 3

AL 4/13/20

